IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 19A-_____
UNITED STATES FISH AND WILDLIFE SERVICE, AND
NATIONAL MARINE FISHERIES SERVICE,
APPLICANTS
v.
SIERRA CLUB, INC.
_______________
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_______________
Pursuant to Rules 13.5 and 30.3 of the Rules of this Court,
the Solicitor General, on behalf of the United States Fish and
Wildlife

Service

and

the

National

Marine

Fisheries

Service,

respectfully requests a 30-day extension of time, to and including
September 27, 2019, within which to file a petition for a writ of
certiorari to review the judgment of the United States Court of
Appeals for the Ninth Circuit in this case.

The court of appeals

entered its judgment on December 21, 2018, and amended the opinion
and denied rehearing en banc on May 30, 2019.

Therefore, unless

extended, the time within which to file a petition for a writ of
certiorari will expire on August 28, 2019.

The jurisdiction of

2
this Court would be invoked under 28 U.S.C. 1254(1).

The amended

opinion of the court of appeals and order denying rehearing (App.,
infra, 1a-19a) are reported at 925 F.3d 1000.
1.

This

case

concerns

the

Freedom

of

Information

Act

(FOIA), 5 U.S.C. 552, specifically Exemption 5, which exempts from
mandatory disclosure “inter-agency or intra-agency memorandums or
letters that would not be available by law to a party other than
an agency in litigation with the agency,” 5 U.S.C. 552(b)(5) (2012
& Supp. V 2017).

This exemption encompasses records covered by

the deliberative-process privilege, which protects “the ‘decision
making processes of government agencies’” by permitting agencies
to

withhold

documents

“‘reflecting

advisory

opinions,

recommendations and deliberations comprising part of a process by
which governmental decisions and policies are formulated.’”

NLRB

v. Sears, Roebuck & Co., 421 U.S. 132, 149-150 (1975) (citations
omitted).
a.

The

Endangered

Species

Act

of

1973

(ESA)

requires

federal agencies to ensure that their actions are “not likely to
jeopardize the continued existence of any endangered species or
threatened

species

or

result

in

the

destruction

or

adverse

modification of [the critical] habitat of such species.” 16 U.S.C.
1536(a)(2).

Agencies

fulfill

that

obligation

by

acting

“in

consultation with and with the assistance of” one or both of the
Services, depending on the species that might be affected.

Ibid.;

3
see 50 C.F.R. 402.14(a).

In circumstances like those here, the

action agency and the Services are required to undertake a formal
consultation process, after which the appropriate Service issues
a written biological opinion assessing whether the proposed agency
action is likely to result in jeopardy to protected species or
adverse

modification

to

their

habitat;

if

so,

the

Service

recommends “reasonable and prudent alternatives” that it believes
will avoid that result.

16 U.S.C. 1536(b)(3)(A); see 50 C.F.R.

402.14(g)(4).
b.

In April 2011, the Environmental Protection Agency (EPA)

proposed new regulations for “cooling water intake structures,”
which power plants and manufacturing facilities use to dissipate
heat from industrial processes.

76 Fed. Reg. 22,174 (Apr. 20,

2011); see 925 F.3d at 1006; 33 U.S.C. 1326(b).

Consistent with

the ESA’s requirements, EPA consulted with the Services about the
potential impact of the new regulations on protected species and
critical habitat.
options

for

considered,

During this consultation process, multiple

EPA’s
and

regulation

multiple

drafts

and

its

of

the

implementation
Services’

were

biological

opinion and related documents were discussed and circulated within
and between the agencies.

See 925 F.3d at 1007.

The Services had planned to provide draft opinions to EPA by
December 6, 2013, and final opinions by December 20, 2013.
925 F.3d at 1007.

See

In preparation for that deadline, each Service

4
prepared a draft “jeopardy opinion” and lists of reasonable and
prudent alternatives. Id. at 1008. The Services sent EPA portions
of their December 2013 draft jeopardy opinions, but never formally
transmitted them in their entirety. Instead, the Services notified
EPA that “additional consultation was needed to better understand
and consider the operation of key elements of EPA’s rule.”

Id. at

1020 (Wallace, J., concurring in the result in part and dissenting
in part) (brackets omitted).

EPA and the Services “agreed[ ] that

more work needed to be done and agreed to extend the time frame
for the consultation.”

Ibid. (brackets in original).

next

Services

few

months,

discussions.

the

and

EPA

Id. at 1008 (majority opinion).

engaged

in

Over the
further

In March 2014, EPA

prepared a new version of its rule, and communicated about it with
the Services. Ultimately, in May 2014, the Services issued a joint
final “no jeopardy” biological opinion regarding the March 2014
final rule.

Ibid.

Respondent submitted FOIA requests to the Services and other
federal agencies for records related to the Services’ consultation
with EPA over the cooling water intake rule.

The government

responded by producing a large quantity of documents, but withheld
other documents under FOIA Exemption 5 and the deliberativeprocess privilege.
c.

Respondent and other parties then filed petitions under

the Administrative Procedure Act for review of both EPA’s new

5
regulation and the Services’ final opinion.

The plaintiffs also

sought to compel supplementation of the administrative record with
draft documents relating to the consultation process.

The Second

Circuit

that

denied

the

petitions

for

review,

finding

“the

Services’ biological opinion is consistent with the ESA and its
implementing

regulations,

and

their

no-jeopardy

supported by the administrative record.”

also

denied

the

is

Cooling Water Intake

Structure Coalition v. EPA, 905 F.3d 49, 83-84 (2018).
Circuit

finding

plaintiffs’

motion

The Second
to

compel

supplementation of the administrative record, holding that the
agencies had “adequately describe[d] the nature of the

* * *

requested documents and their rationale for classifying those
documents as deliberative and therefore privileged.”

Id. at 65

n.9.
d.

Separately, respondent brought this suit under FOIA,

challenging the Services’ withholding of several documents under
Exemption 5 in response to respondent’s FOIA request.

The parties

filed cross motions for summary judgment. The district court found
that

four

of

the

disputed

documents

were

protected

against

disclosure by Exemption 5, but the court ordered the Services to
produce one document in part and 11 other documents in full.

See

925 F.3d at 1009.
2.

The court of appeals affirmed in part and reversed in

part in a partially divided opinion.

925 F.3d 1000.

6
The court of appeals concluded that the deliberative-process
privilege

and

Exemption

5

protected

three

of

the

disputed

documents, but that the Services must disclose the other nine,
including

the

two

December

2013

draft

jeopardy

opinions

documents prepared as possible parts of an opinion.

and

The court

stated that the Ninth Circuit “has defined the ambit of the
deliberative process privilege under Exemption 5 narrowly.”
F.3d at 1011.

925

The privilege applies, the court said, only if the

Services could meet their burden to prove that each document sought
to be protected is both “pre-decisional and deliberative.”

Id. at

1011-1012 (citation omitted).
Although

the

December

2013

draft

jeopardy

opinions

and

associated documents were not finalized, were not publicly issued,
and were not signed by the relevant officials, the court of appeals
nevertheless held that they did not qualify as pre-decisional.
925 F.3d at 1013-1015.

That was so, the court stated, because the

drafts “represent the Services’ final views and recommendations
regarding EPA’s then-proposed regulation.” Id. at 1013. The court
further stated that where “a document is created by a final
decision-maker and represents the final view of an entire agency
as to a matter which, once concluded, is a final agency action
independent of another agency’s use of that document, it is not
pre-decisional.”

Id. at 1014.

The court also stated that the

2013 draft opinions were not pre-decisional with respect to the

7
final opinion issued in May 2014, because that opinion addressed
a “different version of the EPA’s rule.”
The

court

of

appeals

Ibid.

additionally

held

that

the

nine

challenged documents were not “deliberative,” because that term
refers to documents “reflecting the opinions of individuals or
groups of employees rather than the position of an entire agency.”
925 F.3d at 1016.

The court emphasized that the 2013 draft

opinions and associated documents were not “prepared by low-level
officials,” did not “contain merely tentative findings,” and did
not contain “line edits, marginal comments, or other written
material that expose any internal agency discussion.”
1016-1017.

Id. at

The court additionally found that releasing these

documents would not enable a reader “to reconstruct the ‘mental
processes’ that lead to the production of the May 2014 no jeopardy
opinion.”

Id. at 1017.

Judge Wallace dissented in part, and would have held that all
of the documents at issue were protected by Exemption 5 and the
deliberative process privilege.

He criticized the majority for

“overlook[ing] the ‘context of the administrative process which
generated’ the December draft opinions,” specifically, that the
statute

and

regulations

set

up

an

inter-agency

consultation

process that is designed to enable the Services and the agency to
modify their proposals and their views in light of feedback from
one another.

925 F.3d at 1019 (citation omitted).

In Judge

8
Wallace’s view, the majority misunderstood what makes a document
“pre-decisional”

and

“deliberative.”

He

observed

that

the

Services’ decision becomes final only when a biological opinion is
issued, and reasoned that a draft opinion that “die[s] on the vine
. . .

is

still

deliberative.”
original).

a
Id.

draft
at

and

1020

thus

still

(citation

pre-decisional

omitted;

brackets

and
in

Judge Wallace thought it clear that, although “the

Services had decisional authority in preparing the opinions,” they
still “sought advice from EPA about the decision,” and “that is
precisely the type of inter-agency process that Congress designed
the privilege to protect.”
rejected

the

majority’s

Id. at 1020-1021.
“categorical

rule”

Judge Wallace also
that

deliberative

documents cannot reflect the views of an entire agency as opposed
to

individual

or

groups

of

employees,

arguing

that

no

other

circuit’s precedent supports such a rule and that it contravenes
this Court’s decision in Renegotiation Board v. Grumman Aircraft
Engineering Corp., 421 U.S. 168 (1975).
3.

The Solicitor General has not yet determined whether to

file a petition for a writ of certiorari in this case.

The

additional time sought in this application is needed to consult
with various interested components of the government and to assess
the legal and practical impact of the court of appeals’ ruling.
Additional time is also needed, if a petition is authorized, to
permit its preparation and printing.

9
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
AUGUST 2019

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

[4] documents that accompanied the draft jeopardy biological
opinions were not pre-decisional, for purposes of FOIA
exemption incorporating deliberative process privilege;

925 F.3d 1000
United States Court of Appeals, Ninth Circuit.

[5] that EPA revised its rule after consultation with the
Services did not render the Services' jeopardy opinions or
accompanying documents pre-decisional or deliberative;

SIERRA CLUB, INC., Plaintiff-Appellee,
v.
UNITED STATES FISH AND WILDLIFE
SERVICE; National Marine Fisheries
Service, Defendants-Appellants.

[6] the Services' draft jeopardy biological opinions were
deliberative, for purposes of FOIA exemption incorporating
deliberative process privilege;

No. 17-16560
|
Argued and Submitted March 15,
2018 San Francisco, California
|
Filed December 21, 2018
|
Decided May 30, 2019

[7] the Services' proposed reasonable and prudent alternatives
(RPAs) were deliberative, for purposes of FOIA exemption
incorporating deliberative process privilege; and
[8] NMFS's draft jeopardy biological opinion was
deliberative, for purposes of FOIA exemption incorporating
deliberative process privilege.

Synopsis
Background: Requester brought Freedom of Information
Act (FOIA) action against Fish and Wildlife Service
(FWS) and National Marine Fisheries Service (NMFS)
challenging their denial of request for records generated
during the Environmental Protection Agency's (EPA) rulemaking process concerning cooling water intake structures.
The United States District Court for the Northern District
of California, D.C. No. 3:15-cv-05872-EDL, Elizabeth D.
Laporte, United States Magistrate Judge, granted in part
and denied in part the parties' cross-motions for summary
judgment. The government appealed.

Affirmed in part, reversed in part, and remanded.
Wallace, Circuit Judge, filed opinion concurring in the result
in part and dissenting in part.
Opinion, 911 F.3d 967, amended.

West Headnotes (29)
[1]

Holdings: On denial of rehearing, the Court of Appeals, Berg,
District Judge, sitting by designation, held that:

The standard of review on appeal from a
challenge involving Freedom of Information Act
(FOIA) exemption incorporating the deliberative
process privilege is de novo. 5 U.S.C.A. § 552(b)
(5).

[1] NMFS's jeopardy biological opinion was pre-decisional,
for purposes of FOIA exemption incorporating deliberative
process privilege;
[2] the Services' proposed reasonable and prudent alternatives
(RPAs) were pre-decisional, for purposes of FOIA exemption
incorporating deliberative process privilege;

Records
Judicial enforcement in general

Cases that cite this headnote
[2]

[3] the Services' draft jeopardy biological opinions were
not pre-decisional, for purposes of FOIA exemption
incorporating deliberative process privilege;

Records
Judicial enforcement in general
In Freedom of Information Act (FOIA) cases,
the Court of Appeals reviews summary judgment
determinations de novo. 5 U.S.C.A. § 552.

(1a)
© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

Cases that cite this headnote
[3]

Records
Internal memoranda or letters; executive
privilege
Freedom of Information Act's (FOIA)
“foreseeable harm” requirement did not apply to
requester's FOIA request for records generated
during the Environmental Protection Agency's
(EPA) rule-making process concerning cooling
water intake structures, where such request was
made prior to the date of enactment of such
requirement. 5 U.S.C.A. § 552(a)(8)(A)(i).

2a

Cases that cite this headnote
[7]

Because Freedom of Information Act (FOIA) is
meant to promote disclosure, its exemptions are
interpreted narrowly. 5 U.S.C.A. § 552(b)(5).
Cases that cite this headnote
[8]

Records
Internal memoranda or letters; executive
privilege
A document's origins as part of the
interagency consultation process only relate to
a threshold requirement for applying Freedom
of Information Act (FOIA) exemption for interagency or intra-agency memorandums or letters
which would not be available by law to a party
other than an agency in litigation with the agency,
namely that the document is an inter-agency or
intra-agency memorandum. 5 U.S.C.A. § 552(b)
(5).

Cases that cite this headnote
[4]

Records
Matters Subject to Disclosure; Exemptions

Records
In general; freedom of information laws in
general
Freedom of Information Act (FOIA) mandates
a policy of broad disclosure of government
documents. 5 U.S.C.A. § 552.
Cases that cite this headnote

Cases that cite this headnote
[5]

Records
Matters Subject to Disclosure; Exemptions

[9]

Agencies may withhold documents under the
Freedom of Information Act (FOIA) only
pursuant to the listed exemptions. 5 U.S.C.A. §
552(b).

To qualify for withholding under Freedom
of Information Act (FOIA) exemption
incorporating the deliberative process privilege,
a document must thus satisfy two conditions:
its source must be a government agency and it
must fall within the ambit of a privilege against
discovery under judicial standards that would
govern litigation against the agency that holds it.
5 U.S.C.A. § 552(b)(5).

Cases that cite this headnote
[6]

Records
Internal memoranda or letters; executive
privilege
The deliberative process privilege permits
agencies to withhold documents, in response to
Freedom of Information Act (FOIA) requests, to
prevent injury to the quality of agency decisions
by ensuring that the frank discussion of legal or
policy matters in writing, within the agency, is
not inhibited by public disclosure. 5 U.S.C.A. §
552(b)(5).

Records
Internal memoranda or letters; executive
privilege

Cases that cite this headnote
[10]

Records
Internal memoranda or letters; executive
privilege
The deliberative process privilege protected by
Freedom of Information Act (FOIA) exemption
applies only if disclosure of the materials would

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

expose an agency's decision-making process in
such a way as to discourage candid discussion
within the agency and thereby undermine the
agency's ability to perform its functions. 5
U.S.C.A. § 552(b)(5).

3a

[14]

National Marine Fisheries Service's (NMFS)
draft jeopardy biological opinion issued
pursuant to the ESA during consultation
with Environmental Protection Agency (EPA)
over EPA's proposed rule, issued under
the Clean Water Act (CWA), for cooling
water intake structures was pre-decisional,
as required to withhold the opinion under
Freedom of Information Act (FOIA) exemption
incorporating the deliberative process privilege;
the opinion was prepared as an internal agency
document and was only circulated between
groups of NMFS employees, and it did not
appear to represent the conclusion of the agency
on the likely impact of the final rule, but rather
was an interim step, and it expressed the agency
staff's initial opinion as to the rule. 5 U.S.C.A.
§ 552(b)(5); Endangered Species Act of 1973,
§ 7, 16 U.S.C.A. § 1536(a)(2); Federal Water
Pollution Control Act, § 316, 33 U.S.C.A. §
1326(b); 50 C.F.R. §§ 402.14(a), 402.14(h)(3).

Cases that cite this headnote
[11]

Records
Evidence and burden of proof
The government bears the burden of proving that
the documents they maintain should be exempt
from disclosure under Freedom of Information
Act (FOIA) exemption incorporating the
deliberative process privilege are both predecisional and deliberative. 5 U.S.C.A. § 552(b)
(5).
Cases that cite this headnote

[12]

Records
Internal memoranda or letters; executive
privilege
A document is “pre-decisional,” as required to
be protected by Freedom of Information Act
(FOIA) exemption incorporating the deliberative
process privilege, if it is prepared in order to
assist an agency decision-maker in arriving at
his decision, and may include recommendations,
draft documents, proposals, suggestions, and
other subjective documents which reflect the
personal opinions of the writer rather than the
policy of the agency. 5 U.S.C.A. § 552(b)(5).

Cases that cite this headnote
[15]

Records
Internal memoranda or letters; executive
privilege
The agency requesting the Freedom
of Information Act (FOIA) exemption
incorporating the deliberative process privilege
must identify a specific decision to which the
document is pre-decisional. 5 U.S.C.A. § 552(b)
(5).
Cases that cite this headnote

Records
Internal memoranda or letters; executive
privilege
Where one document reflects an earlier position
of the agency expressed in another document
it is pre-decisional as to the issues addressed
in both documents, as required to apply
Freedom of Information Act (FOIA) exemption
incorporating the deliberative process privilege.
5 U.S.C.A. § 552(b)(5).

Cases that cite this headnote
[13]

Records
Internal memoranda or letters; executive
privilege

Cases that cite this headnote
[16]

Records
Internal memoranda or letters; executive
privilege
Back-and-forth debate is precisely the type of
deliberative process that Freedom of Information
Act (FOIA) exemption incorporating the
deliberative process privilege protects. 5
U.S.C.A. § 552(b)(5).

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

Cases that cite this headnote
[17]

4a

by final decision-makers regarding whether
the proposed regulation would harm protected
species and habitat, and the later no jeopardy
opinion addressed a different proposed rule. 5
U.S.C.A. § 552(b)(5); Endangered Species Act
of 1973, § 7, 16 U.S.C.A. § 1536(a)(2); Federal
Water Pollution Control Act, § 316, 33 U.S.C.A.
§ 1326(b); 50 C.F.R. §§ 402.14(a), 402.14(h)(3).

Records
Internal memoranda or letters; executive
privilege
Proposed reasonable and prudent alternatives
(RPAs) to the action that would avoid
jeopardizing the threatened species, which were
sent by Fish and Wildlife Service (FWS) to
Environmental Protection Agency (EPA) during
consultation regarding EPA's proposed rule,
issued under the Clean Water Act (CWA),
for cooling water intake structures, were predecisional, as required to withhold the RPAs
under Freedom of Information Act (FOIA)
exemption incorporating the deliberative process
privilege; the RPAs appeared to be earlier drafts
of a later RPA and did not reflect the FWS’
final position regarding the kinds of changes the
then-current version of the rule needed in order
to comply with the ESA. 5 U.S.C.A. § 552(b)
(5); Endangered Species Act of 1973, § 7, 16
U.S.C.A. §§ 1536(a)(2), 1536(b)(3)(A); Federal
Water Pollution Control Act, § 316, 33 U.S.C.A.
§ 1326(b); 50 C.F.R. §§ 402.14(a), 402.14(g)(8),
402.14(h)(3).

Cases that cite this headnote
[19]

Where a document is created by a final decisionmaker and represents the final view of an entire
agency as to a matter which, once concluded,
is a final agency action independent of another
agency's use of that document, the document is
not “pre-decisional,” and thus is not protected
from disclosure by Freedom of Information Act
(FOIA) exemption incorporating the deliberative
process privilege. 5 U.S.C.A. § 552(b)(5).
Cases that cite this headnote
[20]

Cases that cite this headnote
[18]

Records
Internal memoranda or letters; executive
privilege
Material
which
predates
a
decision
chronologically, but did not contribute to
that decision is not predecisional in any
meaningful sense, and thus is not protected
from disclosure by Freedom of Information Act
(FOIA) exemption incorporating the deliberative
process privilege. 5 U.S.C.A. § 552(b)(5).

Records
Internal memoranda or letters; executive
privilege
Draft jeopardy biological opinions issued by Fish
and Wildlife Service (FWS) and National Marine
Fisheries Service (NMFS), which represented
the Services' final views and recommendations
regarding Environmental Protection Agency's
(EPA) then-proposed Clean Water Act (CWA)
regulation of cooling water intake structures,
were not pre-decisional, and thus could not be
withheld under Freedom of Information Act
(FOIA) exemption incorporating the deliberative
process privilege, even though the opinions
predated the Services' later no jeopardy opinion
and they were not publicly issued; these
opinions, created pursuant to an ESA formal
consultation, contained the final conclusions

Records
Internal memoranda or letters; executive
privilege

Cases that cite this headnote
[21]

Records
Internal memoranda or letters; executive
privilege
Documents that accompanied draft jeopardy
biological opinions issued, pursuant to the
ESA, by Fish and Wildlife Service (FWS)
and National Marine Fisheries Service (NMFS),
which represented the Services' final views
and recommendations regarding Environmental

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

Protection Agency's (EPA) then-proposed Clean
Water Act (CWA) regulation of cooling water
intake structures, were not pre-decisional as
to the Services' later no jeopardy opinion
that addressed a subsequently revised proposed
rule, and thus the documents could not be
withheld under Freedom of Information Act
(FOIA) exemption incorporating the deliberative
process privilege; these documents were largely
instructional, and intended to explain best
practices for mitigating the projected, harmful
effects of the then-current proposed rule, and
they were not early-stage recommendations for
mitigating the impacts of the subsequent rule. 5
U.S.C.A. § 552(b)(5); Endangered Species Act
of 1973, § 7, 16 U.S.C.A. § 1536(a)(2); Federal
Water Pollution Control Act, § 316, 33 U.S.C.A.
§ 1326(b); 50 C.F.R. §§ 402.14(a), 402.14(h)(3).
Cases that cite this headnote
[22]

Records
Internal memoranda or letters; executive
privilege
Examples of “deliberative” materials shielded
from disclosure by Freedom of Information Act
(FOIA) exemption incorporating the deliberative
process privilege include recommendations,
draft documents, proposals, suggestions, and
other subjective documents which reflect the
personal opinions of the writer rather than the
policy of the agency or that inaccurately reflect
or prematurely disclose the views of the agency.
5 U.S.C.A. § 552(b)(5).
Cases that cite this headnote

[23]

Records
Internal memoranda or letters; executive
privilege
The court should not rely on a wooden factsversus-opinions dichotomy for determining
whether a document is deliberative within the
meaning of the Freedom of Information Act
(FOIA) exemption incorporating the deliberative
process privilege. 5 U.S.C.A. § 552(b)(5).
Cases that cite this headnote

5a

[24]

Records
Internal memoranda or letters; executive
privilege
The court applies a functional approach
for determining whether a document is
deliberative within the meaning of the
Freedom of Information Act (FOIA) exemption
incorporating the deliberative process privilege,
which considers whether the contents of the
documents reveal the mental processes of the
decisionmakers and would expose agency's
decision-making process in such a way as to
discourage candid discussion within the agency
and thereby undermine their ability to perform
their functions. 5 U.S.C.A. § 552(b)(5).
Cases that cite this headnote

[25]

Records
Internal memoranda or letters; executive
privilege
The fact that Environmental Protection Agency's
(EPA) decision to revise its proposed Clean
Water Act (CWA) regulation of cooling water
intake structures was the result of additional,
deliberative back-and-forth discussions during
consultation process between EPA and Fish
and Wildlife Service (FWS) and National
Marine Fisheries Service (NMFS), which
occurred after the Services had submitted draft
jeopardy biological opinions pursuant to the
ESA stating that the then-proposed regulation
would harm protected species and habitat,
did not render the Services' jeopardy opinions
or accompanying documents pre-decisional
or deliberative as to the Services' opinion
about the then-current version of the EPA
regulation or as to the Services' later no-jeopardy
conclusion about the later revised version of
the rule, and thus, these jeopardy opinions and
accompanying documents were not protected by
Freedom of Information Act (FOIA) exemption
incorporating deliberative process privilege. 5
U.S.C.A. § 552(b)(5); Endangered Species Act
of 1973, § 7, 16 U.S.C.A. § 1536(a)(2); Federal
Water Pollution Control Act, § 316, 33 U.S.C.A.
§ 1326(b); 50 C.F.R. §§ 402.14(a), 402.14(h)(3).

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

Cases that cite this headnote
[26]

6a

exemption incorporating the deliberative process
privilege; the RPAs appeared to be successive
drafts of the Services' recommendations for the
proposed rule, and comparing these drafts would
shed light on FWS’ internal vetting process. 5
U.S.C.A. § 552(b)(5); Endangered Species Act
of 1973, § 7, 16 U.S.C.A. §§ 1536(a)(2), 1536(b)
(3)(A); Federal Water Pollution Control Act,
§ 316, 33 U.S.C.A. § 1326(b); 50 C.F.R. §§
402.14(a), 402.14(g)(8), 402.14(h)(3).

Records
Internal memoranda or letters; executive
privilege
Draft jeopardy biological opinions issued,
pursuant to the ESA, by Fish and
Wildlife Service (FWS) and National Marine
Fisheries Service (NMFS), which stated that
Environmental Protection Agency's (EPA) thenproposed Clean Water Act (CWA) regulation
of cooling water intake structures would harm
protected species and habitat, as well as
documents accompanying those opinions, were
not deliberative, as required to be withheld under
Freedom of Information Act (FOIA) exemption
incorporating deliberative process privilege;
these jeopardy opinions did not reveal either the
Services' internal deliberative processes or the
EPA's internal deliberative process that resulted
in its revising the draft regulation, nor would
releasing these opinions and accompanying
documents allow a reader to reconstruct the
mental processes that led to the production of
the Services' subsequent no jeopardy opinion as
to the revised regulation. 5 U.S.C.A. § 552(b)
(5); Endangered Species Act of 1973, § 7, 16
U.S.C.A. § 1536(a)(2); Federal Water Pollution
Control Act, § 316, 33 U.S.C.A. § 1326(b); 50
C.F.R. §§ 402.14(a), 402.14(h)(3).

Cases that cite this headnote
[28]

Proposed reasonable and prudent alternatives
(RPAs) to the action that would avoid
jeopardizing the threatened species, which were
sent by Fish and Wildlife Service (FWS)
to Environmental Protection Agency (EPA)
during consultation regarding EPA's proposed
rule, issued under the Clean Water Act
(CWA), for cooling water intake structures,
were not deliberative, and thus could not be
withheld under Freedom of Information Act
(FOIA) exemption incorporating the deliberative
process privilege; the RPAs appeared to be
the final version in a progression of agency
recommendations about how to amend the
proposed rule, and disclosure of the RPAs
would offer no insights into the agency's
internal deliberations. 5 U.S.C.A. § 552(b)(5);
Endangered Species Act of 1973, § 7, 16
U.S.C.A. §§ 1536(a)(2), 1536(b)(3)(A); Federal
Water Pollution Control Act, § 316, 33 U.S.C.A.
§ 1326(b); 50 C.F.R. §§ 402.14(a), 402.14(g)(8),
402.14(h)(3).

Cases that cite this headnote
[27]

Records
Internal memoranda or letters; executive
privilege
Proposed reasonable and prudent alternatives
(RPAs) to the action that would avoid
jeopardizing the threatened species, which were
sent by Fish and Wildlife Service (FWS) and
National Marine Fisheries Service (NMFS) to
Environmental Protection Agency (EPA) during
consultation regarding EPA's proposed rule,
issued under the Clean Water Act (CWA),
for cooling water intake structures, were
deliberative, as required to withhold the RPAs
under Freedom of Information Act (FOIA)

Records
Internal memoranda or letters; executive
privilege

Cases that cite this headnote
[29]

Records
Internal memoranda or letters; executive
privilege
National Marine Fisheries Service's (NMFS)
draft jeopardy biological opinion, which
was issued pursuant to the ESA during
consultation regarding Environmental Protection

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

Agency's (EPA) proposed rule, issued under
the Clean Water Act (CWA), for cooling
water intake structures, was deliberative,
as required to withhold the opinion under
Freedom of Information Act (FOIA) exemption
incorporating the deliberative process privilege;
the opinion addressed the revised rule that
EPA had recently proposed, a reader could
thus conceivably reconstruct some of the
deliberations that occurred between the draft
opinion and the agency's subsequent no-jeopardy
opinion as to the revised rule by comparing
the two, and an NMFS official testified in
an affidavit that this draft of the jeopardy
opinion was only circulated internally between
one employee and a group of other lower-level
employees. 5 U.S.C.A. § 552(b)(5); Endangered
Species Act of 1973, § 7, 16 U.S.C.A. § 1536(a)
(2); Federal Water Pollution Control Act, § 316,
33 U.S.C.A. § 1326(b); 50 C.F.R. §§ 402.14(a),
402.14(h)(3).
Cases that cite this headnote

Attorneys and Law Firms
*1005 Thomas Pulham (argued) and H. Thomas Byron III,
Appellate Staff; David L. Anderson, United States Attorney;
Joseph H. Hunt, Assistant Attorney General; Civil Division,
United States Department of Justice, Washington, D.C., for
Washington, D.C., for Defendants-Appellants.
Reed W. Super (argued) and Michael DiGiulio, Super Law
Group LLC, New York, New York, for Plaintiff-Appellee.
Shaun A. Goho, Emmett Environmental Law & Policy Clinic,
Harvard Law School, Cambridge, Massachusetts, for Amicus
Curiae Union of Concerned Scientists.
Appeal from the United States District Court for the Northern
District of California, Elizabeth D. Laporte, Magistrate Judge,
Presiding, D.C. No. 3:15-cv-05872-EDL
Before: J. Clifford Wallace and Marsha S. Berzon, Circuit
Judges, and Terrence Berg, * District Judge.
Partial Concurrence and Partial Dissent by Judge Wallace

7a
*1006 ORDER
The Opinion filed December 21, 2018 and reported at 911
F.3d 967 is hereby amended. The amended opinion will be
filed concurrently with this order.
A majority of the panel has voted to deny the petition for
panel rehearing. The full court was advised of the petition for
rehearing en banc. No judge requested a vote on whether to
rehear the matter en banc pursuant to Fed. R. App. P. 35(f).
The petition for panel rehearing and the petition for rehearing
en banc are DENIED.
Future petitions for rehearing or rehearing en banc will not be
entertained in this case.

BERG, District Judge:
OPINION
Across the United States, thousands of large industrial
facilities, power plants, and other manufacturing and
processing complexes draw billions of gallons of water each
day from lakes, rivers, estuaries and oceans in order to
cool their facilities through cooling water intake structures. 1
These structures can harm fish, shellfish, and their eggs by
pulling them into the factory's cooling system; they can injure
or kill other aquatic life by generating heat or releasing
chemicals during cleaning processes; and they can injure
larger fish, reptiles and mammals by trapping them against
the intake screens. 2 Section 316(b) of the Clean Water Act,
33 U.S.C. § 1326(b), directs the Environmental Protection
Agency (EPA) to regulate the design and operation of cooling
water intake structures to minimize these adverse effects.
In April 2011, the EPA proposed new regulations under
Section 316(b) for cooling water intake structures. 76 Fed.
Reg. 22,174 (April 20, 2011). The final rule was published
in the Federal Register in August 2014. Final Regulations to
Establish Requirements for Cooling Water Intake Structures,
79 Fed. Reg. 48,300 (Aug. 15, 2014) (to be codified at
40 C.F.R. pts. 122 & 125). As part of the rule-making
process, EPA consulted with Appellants, the United States
Fish and Wildlife Service (FWS) and the National Marine
Fisheries Service (NMFS) (collectively, the Services), about
the impact the regulation might have under the Endangered

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

7

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

Species Act (ESA). Section 7 of the ESA and implementing
*1007 regulations require federal agencies to consult with
the Services whenever an agency engages in an action that
“may affect” a “listed species” (i.e., one that is protected
under the ESA). 50 C.F.R. § 402.14(a). The purpose of
the consultation is to ensure that the agency action is “not
likely to jeopardize the continued existence” or “result in
the destruction or adverse modification of habitat” of any
endangered or threatened species. 16 U.S.C. § 1536(a)(2);
50 C.F.R. § 402.14(a). As part of this Section 7 consultation
process, the Services must prepare a written biological
opinion on whether the proposed agency action is one
that poses “jeopardy” or “no jeopardy” to the continued
existence of a listed species or critical habitat. 50 C.F.R. §
402.14(h)(3). If the opinion concludes that the agency action
causes “jeopardy,” the Services must propose “reasonable and
prudent alternatives” (RPAs) to the action that would avoid
jeopardizing the threatened species. 16 U.S.C § 1536(b)(3)
(A); 50 C.F.R. § 402.14(g)(8), (h)(3). 3
Appellee, the Sierra Club, made a Freedom of Information
Act (“FOIA”) request to the Services for records generated
during the EPA's rule-making process concerning cooling
water intake structures, including documents generated by
the Services as part of an ESA Section 7 consultation about
the rule. The Services withheld a number of the soughtafter records under “Exemption 5” of FOIA, which shields
documents subject to the “deliberative process privilege”
from disclosure. See 5 U.S.C. § 552(b)(5); see also Kowack
v. U.S. Forest Serv., 766 F.3d 1130, 1135 (9th Cir. 2014). The
district court determined that 12 of the 16 requested records
were not protected by the privilege, in whole or in part, and
ordered the Services to turn them over to the Sierra Club. The
Services now appeal. We affirm in part and reverse in part.
I. BACKGROUND
a. Factual History
In 2012, the EPA began an informal consultation process
with the Services about a proposed rule for regulating the
requirements governing the operation of cooling water intake
structures. The EPA requested a formal consultation on the
proposed rule in 2013. On November 4, 2013, the Services
received a revised version of the proposed rule from the
Office of Management and Budget (OMB). On November 15,
2013, the Services sent a “Description of the Action” (i.e. a
summary of what the Services thought the proposed rule set

8a

out to do) to the EPA. Finally, on November 26, 2013, the EPA
responded with corrections to the Services' description of the
rule and the Services incorporated the EPA's corrections. The
EPA and the Services tentatively agreed that the FWS and
NMFS would each provide a draft biological opinion to the
EPA by December 6, 2013, and a final opinion by December
20, 2013.
After reviewing the November 2013 proposed rule, both
Services prepared draft opinions finding that the rule in its
then-current form was likely to cause jeopardy for ESAprotected species and negatively impact their designated
critical habitats. The Services also proposed RPAs to
accompany those jeopardy opinions. At the same time, NMFS
discussed whether the jeopardy opinions should be sent to
“the Hill” or OMB, or posted to its docket, *1008 which was
publicly available at regulations.gov.
NMFS completed its draft jeopardy opinion on December
6, 2013 and FWS completed its draft jeopardy opinion on
December 9, 2013, both for transmission to the EPA. The
ESA regulations require that the Services make draft opinions
available to the Federal agency that initiated the formal
consultation upon request. 50 C.F.R. § 402.14(g)(5). Here, the
Services sent the EPA portions of its December 2013 draft
jeopardy opinions, but never formally transmitted them in
their entirety.
On December 12, 2013, the FWS Deputy Solicitor called
and emailed the EPA General Counsel to “touch base ...
about transmitting a document to EPA.” He also emailed
“the current draft RPAs” to the EPA that same day. On
December 17, 2013, the NMFS sent a “Revised Combined
NMFS and USFWS RPA” to the EPA. The Services have
further indicated in their briefing that they also provided other
unspecified portions of the draft jeopardy opinions to the
EPA.
After the transmission of these partial December 2013
jeopardy biological opinions and accompanying documents,
the EPA issued a new version of the rule, the “final Rule
and Preamble,” which it sent to the Services on March 14,
2014. On April 7, 2014, NMFS employees completed and
internally circulated a draft of another jeopardy biological
opinion. During this same time frame, the Services and the
EPA discussed whether the EPA agreed with the Services'
interpretation and understanding of the March 2014 final rule:
On March 31, 2014 the Services sent the EPA a document
“seeking clarification on the Services' understandings of

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

8

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

key elements in EPA's proposed action.” On April 8, 2014,
EPA “provided confirmation on the Services' description and
understanding of the key elements of EPA proposed action.”
Finally, on May 19, 2014, the Services issued a joint final “no
jeopardy” biological opinion regarding the March 2014 final
rule. The EPA issued the regulation that same day, and it was
published in the Federal Register on August 15, 2014. Final
Regulations to Establish Requirements for Cooling Water
Intake Structures, 79 Fed. Reg. 48,300.
On August 11, 2014, the Sierra Club submitted FOIA
requests to the Services for records related to this ESA
Section 7 consultation. In response, the Services produced a
large quantity of documents (some of which were partially
redacted). The Services withheld other documents under
FOIA Exemption 5, which protects “inter-agency or intraagency memorandums or letters that would not be available
by law to a party other than an agency in litigation with the
agency.” 5 U.S.C. § 552(b)(5).
In summary, the key chronological dates in this FOIA dispute
are:
• June 18, 2013: EPA initiates formal consultation under
ESA Section 7 with the Services regarding the proposed
rule.
• November 4, 2013: The Services receive the most recent
version of the EPA's proposed rule from OMB.
• November 15, 2013: The Services send the Description
of the Action (i.e. a summary of their understanding of
the proposed rule) to the EPA for review.

9a

• December 12, 2013: FWS Deputy Solicitor calls the EPA
General Counsel to “touch base ... about transmitting a
document to EPA.”
• December 12 & 17, 2013: The Services email two RPAs
—written to accompany the draft jeopardy opinions—to
the EPA.
• March 14, 2014: EPA sends the Services a new, final rule
for review and Biological Opinion analysis.
• March 31, 2014: The Services send the EPA a document
requesting clarification regarding their understanding of
elements of the final rule.
• April 7, 2014: NMFS employees internally circulate a
draft jeopardy biological opinion relating to the March
14, 2014 proposed rule; this draft is not sent to EPA.
• April 8, 2014: EPA confirms the Services' interpretations
and understanding of the final rule contained in the
Services' clarification document.
• May 19, 2014: The Services issue a joint final no
jeopardy biological opinion regarding the March 14,
2014 proposed rule.

b. Procedural History

• November 26, 2013: EPA sends the Services its
corrections and comments on the Description of the
Action, which the EPA incorporated into the final
description of the November 2013 proposed rule.

[1] On December 21, 2015, the Sierra Club filed suit against
the Services, arguing that they had improperly withheld
documents under FOIA Exemption 5. The parties filed
cross-motions for summary judgment regarding their release.
During and after that hearing the district court and the parties
narrowed the list of contested documents to 16. The district
court found that 4 of the disputed documents were fully
protected under Exemption 5 but ordered that the Services

• December 3, 2013: The Services inform the EPA that
their draft opinions are “jeopardy opinions” and will
*1009 be completed on or around December 6, 2013.

produce one document in part and the other eleven in full. 4
The Services timely appealed the district court's order to
produce the documents, and the parties stipulated to stay of

• December 6, 2013: NMFS completes its draft jeopardy
opinion.
• December 9, 2013: FWS completes its draft jeopardy
opinion.

production pending appeal. 5
The documents at issue on appeal—those that the district
court found were not exempt from disclosure—were
submitted to the panel under seal for in camera review. They
are:
1. Biological Opinions

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

9

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

10a

i. “NMFS 44516.1”: A 289-page NMFS draft jeopardy
biological opinion dated December 6, 2013;
ii. “FWS 252”: A 72-page FWS draft jeopardy
biological opinion dated December 9, 2013;
iii. “NMFS 5427.1”: A 334-page NMFS draft jeopardy
biological *1010 opinion dated April 7, 2014; 6

sea turtles near cooling water intake structures. The
district court held NMFS could redact one sentence
but had to disclose the rest of the document.

II. STANDARD OF REVIEW
[2] In FOIA cases, this court reviews summary judgment
determinations de novo. Animal Legal Def. Fund v. U.S. Food
& Drug Admin., 836 F.3d 987, 990 (9th Cir. 2016) (en banc).

2. Reasonable and Prudent Alternatives (RPAs)
i. “FWS 279”: A 4-page FWS RPA, dated December 17,
2013;
ii. “FWS 308”: A 3-page FWS RPA, dated December
18, 2013;
iii. “FWS 555”: A 2-page FWS RPA, dated March 6,
2014.
3. Other Documents
i. “NMFS 61721”: A 1-page statistical table showing
estimated aggregate effects of cooling water intake
structure facilities on protected species;
ii. “NMFS 5597.1”: A 2-page document that describes
steps that facility owners/operators must take if
abalone, an endangered species, is affected by their
cooling water intake structures;
iii. “NMFS 7544.2”: A 15-page document on
Anadromous Salmonid Requirements that provides
criteria and guidelines to be utilized by owner/
operators in the development of downstream migrant
fish screen facilities for hydroelectric, irrigation, and
other water withdrawal projects;
iv. “NMFS 37695”: A 2-page document that lists the
steps that owner/operators must follow if a seal, sea
lion, or fur seal, or their designated critical habitat,
may be affected by a cooling water intake structure;
v. “NMFS 37667”: A 3-page document that lists the
steps that owner/operators must follow if sea turtles
are affected by their cooling water intake structures;
vi. “NMFS 14973”: A 5-page document that lists
the terms and conditions with which the EPA and
an owner/operator must comply in order to be
exempt from Section 9 of the ESA. These terms
and conditions involve the protocols for dealing with

III. DISCUSSION
[3]
[4]
[5] Section 522 of Title 5, FOIA, “mandates
a policy of broad disclosure of government documents.”
Maricopa Audubon Soc. v. U.S. Forest Serv., 108 F.3d
1082, 1085 (9th Cir. 1997) (Maricopa I) (quoting Church of
Scientology v. Dep't of the Army, 611 F.2d 738, 741 (9th Cir.
1979) (internal quotations omitted)). Agencies may withhold
documents only pursuant to the exemptions listed in § 552(b).
See id. 7
*1011 Here, the Services argue that the 12 documents the
district court ordered them to produce to the Sierra Club are
protected under § 552(b)(5) (Exemption 5). Under Exemption
5, FOIA's general requirement to make information available
to the public does not apply to “interagency or intra-agency
memorandums or letters that would not be available by law to
a party other than an agency in litigation with the agency ....”
5 U.S.C. § 552(b)(5).
[6] This exemption has been interpreted as coextensive with
all civil discovery privileges. NLRB v. Sears, Roebuck & Co.,
421 U.S. 132, 149, 95 S.Ct. 1504, 44 L.Ed.2d 29 (1975).
The particular privilege the Services have claimed here is
the “deliberative process privilege,” which permits agencies
to withhold documents “to prevent injury to the quality of
agency decisions by ensuring that the frank discussion of legal
or policy matters in writing, within the agency, is not inhibited
by public disclosure.” Maricopa Audubon Soc. v. U.S. Forest
Serv., 108 F.3d 1089, 1092 (9th Cir. 1997) (Maricopa II)
(quoting NLRB v. Sears, Roebuck & Co., 421 U.S. 132, 150–
51, 95 S.Ct. 1504, 44 L.Ed.2d 29 (1975) (internal quotations
omitted)).
[7] [8] [9] Because FOIA is meant to promote disclosure,
its exemptions are interpreted narrowly. Assembly of Cal. v.
U.S. Dep't of Commerce, 968 F.2d 916, 920 (9th Cir. 1992)
(citing Dep't of Justice v. Julian, 486 U.S. 1, 8, 108 S.Ct.
1606, 100 L.Ed.2d 1 (1988)). The dissent argues that because
the FOIA Exemption 5 privileges “inter-agency or intra-

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

10

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

11a

agency memorandums or letters” and because the documents
at issue here were transmitted between agencies, they should
be exempt from disclosure. We agree that the documents must
be considered in the context in which they were produced,
Sears, Roebuck & Co., 421 U.S. at 138, 95 S.Ct. 1504. But
a document's origins as part of the interagency consultation
process between the EPA and the Services, see 50 C.F.R. §
402.14(a), only relate to a threshold requirement for applying
Exemption 5—that the document is an “inter-agency or intraagency memorandum.” Beyond that threshold, “to qualify
[under the deliberative process privilege] a document must
thus satisfy two conditions: its source must be a Government
agency and it must fall within the ambit of a privilege
against discovery under judicial standards that would govern
litigation against the agency that holds it.” Dep't of Interior
v. Klamath Water Users Protective Ass'n, 532 U.S. 1, 8, 121
S.Ct. 1060, 149 L.Ed.2d 87 (2001).

[10] This circuit has defined the ambit of the deliberative
process privilege under Exemption 5 narrowly. It “applies
only if disclosure of the materials would expose an agency's
decision-making process in such a way as to discourage
candid discussion within the agency and thereby undermine
the agency's ability to perform its functions.” Kowack, 766
F.3d at 1135 (quoting Maricopa II, 108 F.3d at 1093)
(internal quotations omitted) (finding the Forest Service had
not sufficiently demonstrated that disclosure of redacted
portions of an intra-agency investigative report regarding
alleged employee misconduct contained more than factual,
i.e., deliberative, content).
[11] The Services therefore bear the burden of proving
that the documents they maintain should be exempt from
disclosure are both “pre-decisional and deliberative.” *1012
Carter v. Dep't of Commerce, 307 F.3d 1084, 1089 (9th Cir.
2002) (internal quotations omitted). 8
These pre-decisional and deliberative prongs are analyzed
separately although the issues they address overlap.
Assembly of Cal., 968 F.2d at 920. For the reasons
explained below, we conclude that the December 2013
draft jeopardy biological opinions (NMFS 44516.1 and
FWS 252), the accompanying statistical table (NMFS
61721), the accompanying instructional documents (NMFS
5597.1, NMFS 7544.2, NMFS 37695, NMFS 37667, NMFS
14973.1), and the March 2014 RPA (FWS 555) were not
both pre-decisional and deliberative. We therefore AFFIRM
in part the district court's summary judgment order requiring
the production of these records. There is, however, sufficient

support for concluding the December 2013 RPAs (FWS 279,
308) and the April 2014 draft jeopardy opinion (NMFS
5427.1) were pre-decisional and deliberative. Because these
records satisfy the standard for non-disclosure under FOIA
Exemption 5, we REVERSE the district court's order for their
production.

a. Pre-decisional
[12] [13] A document is pre-decisional if it is “prepared
in order to assist an agency decision-maker in arriving
at his decision, and may include recommendations, draft
documents, proposals, suggestions, and other subjective
documents which reflect the personal opinions of the writer
rather than the policy of the agency.” Assembly of Cal., 968
F.2d at 920 (citation and internal quotations omitted). The
agency requesting the exemption “must identify a specific
decision to which the document is pre-decisional.” Maricopa
II, 108 F.3d at 1094.
Here, the Services argue that the December 2013 and April
2014 jeopardy opinions, the three RPAs, and all of the other
statistical and instructional documents pre-date the May 2014
“no jeopardy” opinion and are thus pre-decisional as to that
final opinion.

1. April 2014 NMFS Draft Biological Opinion
[14] [15] [16] We agree that the April 2014 draft jeopardy
opinion (NMFS 542.71) was prepared as an internal agency
document. It was only circulated between groups of NMFS
employees, and there is nothing in the record that indicates
that the jeopardy finding was communicated even informally
*1013 to the EPA. Where one document reflects an earlier
position of the agency—as the April 2014 draft jeopardy
opinion does here when compared with the May 2014 final
no jeopardy opinion—it is pre-decisional as to the issues
addressed in both. See Nat. Wildlife Fed., 861 F.2d at 1120
(documents that were “working drafts” subject to revision
are pre-decisional). In other words, it does not appear to
represent the conclusion of the agency on the likely impact
of the final March 2014 rule, but rather is an interim step,
communicated only internally within NMFS. The document
expressed the agency staff's initial opinion as to the rule.
NMFS never adopted that opinion as the agency's; instead, the
NMFS ultimately joined the FWS in a final joint no jeopardy
opinion in May 2014 regarding the final March 2014 rule. 9

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

11

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

12a

2. RPAs
[17] We also agree that the December 2013 RPAs (FWS
279, 308) are pre-decisional because they appear to be earlier
drafts of the third, March 2014 RPA (FWS 555). In other
words, the December 2013 RPAs do not reflect the FWS' final
position regarding the kinds of changes the November 2013
version of the rule needed in order to comply with the ESA.
The December 2013 RPAs, but not the March 2014 RPA, are
therefore pre-decisional.

3. 2013 Draft Biological Opinions
[18] We disagree with the Services, however, that the
December 2013 draft jeopardy opinions (NMFS 44516.1;
FWS 252) are pre-decisional. These two jeopardy opinions
represent the final view of the Services regarding the thencurrent November 2013 proposed rule; the May 2014 no
jeopardy opinion represents the final view of Services
regarding the later March 2014 revised, proposed rule.
Both the Supreme Court and this court have held that the
issuance of a biological opinion is a final agency action.
Bennett v. Spear, 520 U.S. 154, 178, 117 S.Ct. 1154, 137
L.Ed.2d 281 (1997); Ctr. for Biological Diversity v. U.S.
Fish & Wildlife Serv., 450 F.3d 930, 940 (9th Cir. 2006).
So our focus is on whether each document at issue is
pre-decisional as to a biological opinion, not whether it is
pre-decisional as to the EPA's rulemaking. Although the
December 2013 biological opinions in this case were not
publicly issued, they nonetheless represent the Services'
final views and recommendations regarding the EPA's
then-proposed regulation. The purpose of the December
2013 jeopardy biological opinions and their accompanying
documents was not to advise another decision-maker higher
up the chain about what the Service's position should be on
the proposed rule. Instead, these opinions, created pursuant
to an ESA Section 7 formal consultation, contain the final
conclusions by the final decision-makers—the consulting
Services—regarding whether a proposed regulation will harm
protected species and habitat. See 50 C.F.R. 402.14(h)(3)
(a biological opinion is “[t]he Service's opinion *1014
on whether the action is likely to jeopardize the continued
existence of listed species. ...”) (emphasis added).

[19] Where, as here, a document is created by a final
decision-maker and represents the final view of an entire
agency as to a matter which, once concluded, is a final
agency action independent of another agency's use of that
document, it is not pre-decisional. Cf. Maricopa II, 108 F.3d
at 1094 (Forest Service's internal investigative report was
prepared to advise the Chief of the Forest Service on how
the agency should respond to misconduct allegations and was
thus predecisional); Kowack v. U.S. Forest Serv., 766 F.3d
1130, 1135 (9th Cir. 2014) (investigative reports prepared
by the Forest Service's Misconduct Investigations program
manager were meant to assist the agency in making a final
decision regarding how to deal with an employee and were
thus pre-decisional).
The record reflects the finality of the conclusions in the
December 2013 draft jeopardy opinions. The documents had
been approved by final decision-makers at each agency:
the email correspondence in the record indicates Gary
Frazer, the Assistant Director for Ecological Services at
FWS who was responsible for overseeing and administering
ESA consultations, made final edits to the FWS Service
December 9, 2013 jeopardy opinion and that the document
was awaiting his autopen signature. NMFS meanwhile was
preparing “talking points” for its legislative affairs staff and
preparing to release the drafts to the public.
Moreover, the Services' own account indicates that the EPA
made changes to its proposed regulations after December
2013—that is, after both Services' jeopardy opinions were
completed and partially transmitted to the EPA—and that
the “final” May 2014 Biological Opinion reflected the
Services' opinion concerning the EPA's later revised proposed
regulation.
[20] The fact that the December 2013 jeopardy opinions
predated the later no jeopardy opinion does not render
them predecisional. “[M]aterial which predate[s] a decision
chronologically, but did not contribute to that decision
is not predecisional in any meaningful sense.” Assembly
of Cal., 968 F.2d at 921 (census data prepared by the
Department of Commerce “solely for the purpose of postdecision dissemination” if the Secretary decided to adjust the
census was not pre-decisional merely because it predated the
Secretary's decision). The December 2013 jeopardy opinions
pre-date the May 2014 no jeopardy opinion, but address and
thus make final conclusions about a different version of the
EPA's rule. These earlier opinions therefore were not pre-

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

12

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

13a

decisional with respect to the later opinion, which addressed
a different proposed rule.

4. Other Documents
[21] We disagree with the Services' arguments that the
remaining documents, which accompanied the December
2013 draft jeopardy opinions, were pre-decisional because
they were either “modified” or excluded from the May 2014
final no jeopardy opinion. These documents—1) a statistical
table showing estimated aggregate effects of cooling water
intake structures on ESA-protected species (NMFS 61721);
2) several instructional documents for cooling water intake
structure operators detailing how to abate the harmful
impacts of those structures on specific species (NMFS
5597.1, “Abalone Measures”), (NMFS 7544.2, “Andromous
Salmonid Measures”), (NMFS 37695, “Pinniped Measures”),
and (NMFS 37667, “Sea Turtle Requirements”); and 3)
“Terms and Conditions” that operators of cooling water intake
structures must follow in implementing *1015 the RPAs
(NMFS 14973.1)—were largely instructional, and intended
to explain best practices for mitigating the projected, harmful
effects of the November 2013 proposed rule. They were not
early-stage recommendations for mitigating the impacts of the
revised, March 2014 rule, and are thus not pre-decisional as
to the May 2014 no jeopardy opinion the Services issued in
response to that later rule.

b. Deliberative
[22] To shield documents from disclosure under Exemption
5, the Services must not only show that they are predecisional,
but also that they are deliberative. Maricopa II, 108 F.
3d at 1093. Examples of “deliberative” materials include
“recommendations, draft documents, proposals, suggestions,
and other subjective documents which reflect the personal
opinions of the writer rather than the policy of the agency” or
that “inaccurately reflect or prematurely disclose the views of
the agency.” Nat'l Wildlife Fed'n v. U.S. Forest Serv., 861 F.2d
1114, 1118–19 (9th Cir. 1988) (quoting Coastal States Gas
Corp. v. Dep't of Energy, 617 F.2d 854, 866 (D.C. Cir. 1980)).
With three exceptions noted below, the contested documents
here are not “deliberative.”

Cal., 968 F.2d at 921 (citing EPA v. Mink, 410 U.S. 73, 91, 93
S.Ct. 827, 35 L.Ed.2d 119 (1973)). Accordingly, this circuit
applies a “functional approach,” which considers whether
the contents of the documents “reveal the mental processes
of the decisionmakers” and would “expose [the Services']
decision-making process in such a way as to discourage
candid discussion within the agency and thereby undermine
[their] ability to perform [their] functions.” Id. at 920–21.
After conducting a de novo review of the documents, we
conclude that only three—the December 2013 RPAs (FWS
279, 308) and April 2014 draft jeopardy opinion (NMFS
5427.1)—could reveal inter- or intra- agency deliberations
and are thus exempt from disclosure.
[25] The Services argue that all the documents at issue
are deliberative because they were created as part of a
“lengthy and complicated” consultation process between
the Services and the EPA about the EPA's water cooling
intake structures rule—a process during which many drafts
of biological opinions and other documents were circulated
intra-agency and inter-agency and “commented upon by
others, revised, and recirculated for further discussion.”
According to the Services, the Sierra Club's request is
intended to “uncover any discrepancies between the findings,
projection and recommendations” between jeopardy opinions
created by “lower-level” Services personnel and the final joint
no jeopardy opinion. (quoting Nat'l Wildlife Fed'n, 861 F.2d
at 1122).
The underlying concern in National Wildlife Federation was
that releasing “working drafts” and comments on Forest Plans
and Environmental Impact Statements (EISs) prepared by
“lower-level” Forest Service employees would “reveal the
mental processes” that went into choosing and publishing a
final Forest Plan and EIS. Id. at 1119–22. In other words, a
reader with access to both these working drafts and the final
plan could “probe the editorial and policy judgment of the
decision-makers” who selected and issued the final plan. Id.

The draft Forest Plans in National Wildlife Federation were
a collection of “tentative opinions and recommendations of
Forest Service employees”; the draft *1016 EISs compared
these alternative Forest Plan proposals, thereby revealing the
agency's deliberations in choosing a final plan. Id. at 1121–
22. This understanding of “deliberative”—meaning reflecting
[23]
[24] The Supreme Court has cautioned against the opinions of individuals or groups of employees rather than
the position of an entire agency—is shared among the circuits.
relying on a “wooden” facts-versus-opinions dichotomy for
See, e.g., Moye, O'Brien, O'Rourke, Hogan & Pickert v. Nat'l
determining whether a document is deliberative. Assembly of

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

13

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

14a

R.R. Passenger Corp., 376 F.3d 1270, 1279 (11th Cir. 2004)
(Amtrak OIG “audit work papers and internal memoranda”
that “lower level staff” played a “significant role” in authoring
were deliberative); Grand Cent. Partnership, Inc. v. Cuomo,
166 F.3d 473, 483 (2d Cir. 1999) (emails between HUD
employees that discussed their personal opinions on an
investigation into misconduct by a HUD funding recipient
were deliberative); Providence Journal Co. v. U.S. Dep't of
Army, 981 F.2d 552, 560 (1st Cir. 1992) (Inspector General
Reports that were “essential to the consultative process within
the agency” were deliberative (emphasis added)).
The dissent makes a similar point about the ongoing nature of
the consultative process to argue that documents exchanged
between the Services and the EPA during that process
are protected inter-agency memoranda. It cites to the ESA
Section 7 regulations to point out that the Services “shall
make available to the Federal agency the draft biological
opinion for the purpose of analyzing the reasonable and
prudent alternatives.” 50 C.F.R. § 402.14(a). The agency may
in turn submit comments to the Service regarding the draft
biological opinion within a given window of time, at which
point the Service may receive an extension on the time for
issuing the opinion. Id.
Nothing in the documents at issue here indicates whether
the EPA sent these types of comments to the Services, how
those comments impacted the Services' jeopardy/no jeopardy
conclusion, or anything else about what the substance of those
comments might have been. Such documents would likely
satisfy the two aforementioned conditions of 1) being an
inter-agency memorandum that 2) fell within the ambit of
deliberative process.
In the case before the court, we know that the draft opinion
was transmitted piecemeal to the EPA, the Services and the
EPA agreed to extend the time frame for the consultation,
and that “[u]ltimately based on changes to the regulation,
the Services' final conclusion was that the regulation”—the
final version—“was not likely to jeopardize the continued
existence of listed species nor likely to destroy or adversely
modify critical habitat.” (emphasis added). The fact that the
decision to revise the rule after the jeopardy finding was the
result of additional back-and-forth between the Services and
the EPA—deliberative discussions that are not memorialized
in the documents before us—does not render the December
2013 opinions or accompanying documents pre-decisional or
deliberative as to the Services' opinion about the November

2013 version of the EPA regulation or as to the Services' later
conclusion about a different version of the rule.

1. 2013 Draft Biological Opinions and Other Documents
[26] After reviewing the documents in this case in camera
to make a de novo determination, we conclude that neither
the December 2013 draft jeopardy opinions (NMFS 44516.1;
FWS 252), nor the accompanying statistical and instructional
documents (NMFS 5597.1, NMFS 7544.2, NMFS 37695,
NMFS 37667, NMFS 14973.1) were prepared by low-level
officials, or contain merely tentative findings. These are final
products that reflect the agencies' findings on the jeopardy
posed *1017 by the November 2013 proposed rule, and their
recommendations for mitigating the harmful impacts of that
rule.
We note that the documents do not contain line edits, marginal
comments, or other written material that expose any internal
agency discussion about the jeopardy finding. Nor do these
documents contain any insertions or writings reflecting input
from lower level employees. 10 The two December 2013
opinions both state they were prepared on behalf of the entire
agency and represent that agency's opinion. And the record
shows that preparations were being made for the NMFS
opinion (NMFS 44516.1), as is, to be publicly “roll[ed]
out” and published in the administrative record; the FWS
opinion (FWS 252), which includes its agency's seal/header,
had received final edits from a senior official and was just
awaiting his autopen signature.
The only thing the December 2013 draft jeopardy opinions
have in common with the draft Forest Plans and EISs
in National Wildlife Federation is that they were referred
to as “draft” documents. But to treat them similarly
would ignore clear substantive distinctions. Unlike the
documents in National Wildlife Federation, these opinions
and accompanying documents represent the final view of the
Services on the likely impact of the then-proposed regulation.
These final jeopardy opinions from December 2013 pertain to
a different rule and are not “earlier draft” versions of the no
jeopardy opinion from May 2014; that later opinion addressed
a new and different proposed rule. 11
Moreover, taking seriously our obligation to consider the
underlying purpose of the deliberative process privilege, these
documents do not reveal more about the internal deliberative
process that the Services went through before issuing their

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

14

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

15a

joint May 2014 no jeopardy opinion than what the Services
themselves have already disclosed during this litigation: that
the initial proposed regulation resulted in final drafts of
jeopardy opinions in December 2013, that the EPA received
portions of those opinions and proposed a revised regulation
at some point after that, and that the Services ultimately issued
a no jeopardy opinion for that revised, proposed regulation.
Nor do the December 2013 jeopardy opinions reveal either the
Services' internal deliberative processes that lead to reaching
those opinions or the EPA's internal deliberative process that
resulted in revising the draft regulation. Cf. Assembly of Cal.
v. U.S. Dep't of Comm., 968 F.2d 916, 922–23 (9th Cir.
1992) (disclosing final census figures would not reveal the
deliberative process in reaching those figures, particularly
when the method used to generate the data was already a
matter of public record).
Nor would releasing these opinions and accompanying
documents allow a reader to reconstruct the “mental
processes” that lead to the production of the May 2014 no
jeopardy opinion by allowing one to compare an early draft
of that opinion to the final opinion. There is no later draft of
the Services' opinion regarding the November 2013 version
of the rule that a discerning reader could compare to the two
December 2013 opinions requested here.
*1018 Again, the statistical table (NMFS 61721) and
the instructional documents and terms and conditions
(NMFS 5597.1, NMFS 7544.2, NMFS 37695, NMFS 37667,
NMFS 14973.1) summarize the Services' best practices
and recommendations for mitigating environmental harm to
certain species, and effectively monitoring the welfare of
certain protected species should they appear in the vicinity
of a water cooling intake structure. They do not reveal any
internal discussions about how those recommendations were
vetted and are thus not deliberative.

2. RPAs
[27] Our analysis regarding the December 2013 RPAs
(FWS 279, 308) is different from our analysis concerning
the December 2013 Draft Biological Opinions and Other
Documents because, as discussed above, they do appear to
be successive drafts of the Services' recommendations for the
November 2013 proposed rule. And comparing these drafts
would shed light on FWS' internal vetting process. Thus,
considering de novo whether the Services have carried their

burden in showing that these documents are deliberative, we
find that they have done so.
[28] By comparison, disclosure of only the March 2014
RPA (FWS 555) will offer no insights into the agency's
internal deliberations. It appears to be the final version in a
progression of agency recommendations about how to amend
the November 2013 proposed rule. The Services have offered
no evidence that there were any subsequent versions of this
RPA addressing the November 2013 proposed rule. The
March 2014 RPA is therefore not deliberative.

3. April 2014 NMFS Draft Biological Opinion
[29] Finally, we agree with the Services that the NMFS April
2014 draft jeopardy biological opinion is deliberative. As
discussed above, it addresses the revised rule that the EPA
proposed in March 2014. A reader could thus conceivably
reconstruct some of the deliberations that occurred between
the April 2014 and May 2014 opinions by comparing the
two. Additionally, the Acting Assistant Administrator for
NMFS testified in an affidavit provided to the district court
that this draft of the jeopardy opinion was only circulated
internally between one employee and a group of other lowerlevel employees. The April 2014 draft jeopardy opinion is
therefore deliberative and subject to Exemption 5.
IV. CONCLUSION
For the foregoing reasons the district court's order to
produce the December 2013 draft jeopardy biological
opinions (NMFS 44516.1 and FWS 252), the March
2014 RPA (FWS 555), and the remaining statistical and
instructional documents (NMFS 5597.1, NMFS 61721,
NMFS 7544.2, NMFS 37695, NMFS 37667, NMFS 14973.1)
is AFFIRMED because the record shows that these materials
are not both pre-decisional and deliberative and therefore not
exempt under § 522(b)(5) of FOIA, Exemption 5.
The district court's order to produce the December 2013 RPAs
(FWS 279, 308) and the April 2014 draft jeopardy opinion
(NMFS 5427.1) is REVERSED because these materials
are both pre-decisional and deliberative and thus exempt
from disclosure under FOIA Exemption 5. The parties agree
that reversal would require the district court to perform a
segregability analysis on remand. We instruct the district
court to perform that analysis.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

15

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

16a

The case is REMANDED for further proceedings consistent
with this opinion.

WALLACE, Circuit Judge, concurring in the result in part and
dissenting in part:
*1019 I concur in the result reached by the majority as to the
April 2014 draft opinion (NMFS 5427.1) and the December
2013 RPAs (FWS 279, 308). I dissent from the result reached
by the majority as to the rest of the documents. I respectfully
disagree with my colleagues that the deliberative process
privilege does not protect the December draft opinions
(NMFS 44516.1, FWS 252) and other documents.
The majority overlooks the “context of the administrative
process which generated” the December draft opinions.
NLRB. v. Sears, Roebuck & Co., 421 U.S. 132, 138, 95
S.Ct. 1504, 44 L.Ed.2d 29 (1975). They were part of an
inter-agency consultation process. 50 C.F.R. § 402.14(a).
The regulations governing that process make clear that the
purpose of agency review is to allow the Services to consider
changes to the draft opinion based on the agency's comments.
Specifically, the regulations forbid the Services from issuing
the final opinion before the agency has had time to comment
on the draft and build in time for the Services to revise a draft
opinion to incorporate or respond to any agency comments.
See 50 C.F.R. § 402.14(g)(5) (Services cannot issue the final
opinion “prior to the 45-day or extended deadline while the
draft is under [the agency's] review” and if the agency submits
comments within 10 days of the final opinion deadline, the
Services are entitled to a 10-day deadline extension). The
preamble to the regulations explains that the “release of draft
opinions to Federal agencies ... facilitates a more meaningful
exchange of information,” “may result in the development
and submission of additional data, and the preparation of
more thorough biological opinions,” and “helps ensure the
technical accuracy of the opinion.” Interagency Cooperation
—Endangered Species Act of 1973, 51 Fed. Reg. 19,926,
19,952 (June 3, 1986). Therefore, the regulations governing
formal consultations set up a process by which the Services
may receive feedback from the agency on draft opinions.
Moreover, a formal consultation may involve not only the
Services making a jeopardy decision, but also a decision about
what alternative actions are reasonable and prudent, so-called
RPAs. The Services and the agency “work[ ] closely” on the
“development of [RPAs]” contained in a jeopardy opinion. Id.
The “provision to review draft biological opinions” provides
the necessary “exchange of information for the development

of [RPAs].” Id. The Services “will, in most cases, defer to
the Federal agency's expertise and judgment” as to whether
a draft RPA is feasible, but if the Services disagree, the
Services make the ultimate call. Id. Thus, even though the
Services have discretion as to whether to accept the EPA's
comments, the purpose of agency review is to seek the
agency's advice on the draft opinion. Seeking comments on
a document presupposes the ability to make changes to it,
showing it is pre-decisional. It also shows the deliberative
nature of the process. Accordingly, the administrative context
shows that draft opinions are generally both pre-decisional
and deliberative.
A quick look at the record in this case dispels any doubt
that the December draft opinions are pre-decisional and
deliberative. The FWS draft opinion requests that the EPA
“provide any comments” and states that the FWS would
need about ten days after receiving comments, assuming
they are not substantial, to issue the final opinion. Likewise,
the government submitted declarations of two managementlevel Service employees stating that the drafts were subject
to revision. Gary Frazer, assistant director of the FWS,
stated that both draft opinions “were subject to internal
*1020 review within FWS and the Department of the
Interior and consultation with the EPA.” Samuel D. Rauch,
an administrator at the NMFS, stated that by transmitting a
draft opinion to the EPA, the “NMFS is not rendering a final
decision” and the document “remains a draft and is subject to
change until final signature.”
The majority asserts that there is nothing in the record that
“indicates whether the EPA sent ... comments to the Services”
on the December draft opinions. Of course, there is not. As the
majority observes, the Services “never formally transmitted”
the drafts to the EPA. The EPA could not mark up a document
it never received. The record, however, is clear that the EPA
and the Services engaged in extensive discussions about the
draft opinions before and after the December 6 deadline.
As the deadline approached, the Services decided based on
“internal review and interagency review in December” that
“additional consultation [with the EPA] was needed to better
understand and consider the operation of key elements of
EPA's rule.” The EPA and the Services “agreed[ ] that more
work needed to be done and agreed to extend the time frame
for the consultation.” That the EPA and the Services jointly
concluded the draft opinions needed more work shows their
predecisional and deliberative nature: the Services had not
made a final decision as of December and the deliberative
process was ongoing.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

16

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

17a

The majority and Sierra Club argue that because the
December draft opinions were the Services' “final” word
on the November 2013 regulations, the opinions are not
predecisional. I disagree. The Services' decision would
become final only “once the biological opinion is issued.” Ctr.
for Biological Diversity v. U.S. Fish & Wildlife Serv., 450 F.3d
930, 940 (9th Cir. 2006); see also Bennett v. Spear, 520 U.S.
154, 177–78, 117 S.Ct. 1154, 137 L.Ed.2d 281 (1997). The
majority's observation that the December draft opinions did
not contribute to the Services' later decision about the March
2014 regulations is beside the point. The draft opinions are
pre-decisional as to the November 2013 regulations, which
the EPA changed before finalizing. That the Services never
gave their final word as to those regulations does not strip
the drafts of their privileged status. A draft that “die[s] on
the vine .... is still a draft and thus still pre-decisional and
deliberative.” Nat'l Sec. Archive v. CIA, 752 F.3d 460, 463
(D.C. Cir. 2014); see also Sears, 421 U.S. at 151 n.18, 95 S.Ct.
1504 (privilege may apply even if documents “do not ripen
into agency decisions”).
The majority and Sierra Club contend that the December
draft opinions are not deliberative because the Services'
management had vetted them and they represented the view
of the “entire” Services. But even if true, those facts do not
show that the drafts are not deliberative. It is well established
that circulation of a draft opinion to another agency does not
change its privileged status, any more than circulation within
the agency. The Supreme Court has spoken decisively on this
point: “By including inter-agency memoranda in Exemption
5, Congress plainly intended to permit one agency possessing
decisional authority to obtain written recommendations and
advice from a separate agency not possessing such decisional
authority without requiring that the advice be any more
disclosable than similar advice received from within the
agency.” Renegotiation Bd. v. Grumman Aircraft Eng'g Corp.,
421 U.S. 168, 188, 95 S.Ct. 1491, 44 L.Ed.2d 57 (1975).
Here, the Services had decisional authority in preparing the
opinions, but sought advice from the EPA about the decision.
Grumman Aircraft teaches that is precisely the type of interagency *1021 process that Congress designed the privilege
to protect.
The majority's decision sets out a categorical rule that
the deliberative process privilege protects only documents
“reflecting the opinions of individuals or groups of
employees rather than the position of an entire agency.” This
rule contravenes Grumman Aircraft, which acknowledged

Exemption 5's parity between inter- and intra-agency drafts.
421 U.S. at 188, 95 S.Ct. 1491. There the Supreme Court
explained, “Exemption 5 does not distinguish between interagency and intra-agency memoranda.” Id. Unsurprisingly, the
out-of-circuit cases the majority cites provide no support for
its ill-founded rule, much less do they reflect that this view
“is shared among the circuits” as the majority claims. In each
cited case, the court concluded that the deliberative process
privilege protected the documents at issue. Moye, O'Brien,
O'Rourke, Hogan & Pickert v. Nat'l R.R. Passenger Corp.,
376 F.3d 1270, 1278 (11th Cir. 2004); Grand Cent. P'ship,
Inc. v. Cuomo, 166 F.3d 473, 483 (2d Cir. 1999); Providence
Journal Co. v. U.S. Dep't of Army, 981 F.2d 552, 562–63
(1st Cir. 1992). Therefore, even if the majority is right that
these cases show that “opinions of individuals or groups of
employees” are generally deliberative, they do not support the
contrary proposition that “the position of an entire agency”
can never be deliberative.
Sierra Club makes much of the fact that “the Services
typically include draft biological opinions in their
administrative records.” Again, even if true, the government's
waiver of privilege in some contexts does not waive the
privilege here, see Assembly of Cal. v. U.S. Dep't of
Commerce, 968 F.2d 916, 922 n.5 (9th Cir. 1992), a point that
Sierra Club concedes.
Finally, Sierra Club argues that the Services' draft opinions are
“significant, legally-mandated drafts, apart from any number
of internal or ‘working drafts.’ ” It argues that they are
“formal documents reflecting and conveying the Services'
conclusions at a prescribed point in the consultation process.”
This argument reflects a misunderstanding of the governing
regulation. It does not require draft opinions shared with the
EPA to be “significant” or to constitute a formal statement
of the Services' conclusions. The regulation states that the
Services must, upon the agency's request, “make available
to the Federal agency the draft biological opinion for the
purpose of analyzing the [RPAs].” 50 C.F.R. § 402.14(g)(5).
The regulation, however, does not provide that a draft opinion
shared with an agency be at any particular level of completion
or approval. For example, nothing appears to preclude the
EPA from requesting to see a draft at the beginning of the
process. It also does not require that the Services ever provide
a draft opinion to the EPA if the EPA does not request it. Given
that “Exemption 5 does not distinguish between inter-agency
and intra-agency” drafts, Grumman Aircraft, 421 U.S. at 188,
95 S.Ct. 1491, a draft opinion sent to the EPA is no more

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

17

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

18a

disclosable than a draft sent from one working group within
the Service to another.

In conclusion, the administrative process that generated
the draft opinions shows that they are pre-decisional and
deliberative. They are pre-decisional because they do not
reflect the Services' final jeopardy and RPA decisions as
to the November 2013 regulations. They are deliberative
because they are “part of the deliberative process” by which
the Services and the EPA consult on those decisions. Nat'l
Wildlife Fed'n v. U.S. Forest Serv., 861 F.2d 1114, 1118 (9th
Cir. 1988). I conclude that the Services may withhold them.
The deliberative process privilege also protects the other
documents at issue in *1022 this case. Because the NMFS
never finalized or adopted the April draft jeopardy opinion
(NMFS 5427.1), my analysis above applies to it with equal
force. The same is true for the three draft RPAs (FWS 279,
FWS 308, FWS 555), which were part of never-finalized
jeopardy opinions. In addition, the Services should be able
to withhold the four species-specific protective measures
(NMFS 5597.1, NMFS 7544.2, NMFS 37695, NMFS 37667),

the affected species table (NMFS 61721), and the terms
and conditions (NMFS 14973.1). The protective measures
are earlier versions of those included in the final opinion.
Likewise, NMFS decided not to include the table in the
final opinion after deliberations among scientists. Finally,
NMFS staff circulated the terms and conditions internally as
a possible precedent for a section of the final opinion. In each
case, the documents are privileged because disclosure would
allow Sierra Club to “probe the editorial and policy judgment
of the decisionmakers” by comparing the draft versions to
what the Services finally published. Nat'l Wildlife, 861 F.2d
at 1122.
In conclusion, I would reverse the district court's judgment
ordering production of all twelve documents and instruct it to
perform a segregability analysis on remand. 1
All Citations
925 F.3d 1000, 19 Cal. Daily Op. Serv. 4905, 2019 Daily
Journal D.A.R. 4636

Footnotes

*
1
2
3
4

5
6
7

The Honorable Terrence Berg, United States District Judge for the Eastern District of Michigan, sitting by designation.
Riverkeeper, Inc. v. EPA, 358 F.3d 174, 181 (2d Cir. 2004).
See Cooling Water Intakes, Envtl. Protection Agency, https://www.epa.gov/cooling-water-intakes.
The Second Circuit in a consolidated case recently denied a petition to review several challenges to this final rule under
the Clean Water Act, the Administrative Procedures Act, and the Endangered Species Act. Cooling Water Intake Structure
Coal. v. EPA, 898 F.3d 173 (2d Cir. 2018), amended, 905 F.3d 49 (2d Cir. 2018).
Although the district court initially cited the correct test for FOIA Exemption 5—that exempt documents must be both “predecisional” and “deliberative” to avoid disclosure—the test it applied to each document was whether it was a “relatively
polished draft” that contained “subjective comments, recommendations, or opinions.” These factors, though they might
bear on whether a document was “pre-decisional” or “deliberative,” are not dispositive—and to the extent the district
court's analysis depended solely on these factors, it was in error. Because the standard of review on appeal from an
Exemption 5 challenge is de novo, however, we have examined each of the contested documents to determine whether
they satisfy the “pre-decisional” and “deliberative” test.
Sierra Club did not cross-appeal to challenge the district court's holding that four of the requested documents were
completely protected under Exemption 5.
The draft opinion itself is undated. The district court opinion states that it was dated April 4, 2014, but the affidavit submitted
on behalf of the agency that created it states it was sent via email on April 7, 2014. We therefore refer to it as the April
7, 2014 draft opinion.
In 2016, Congress amended FOIA by adding another requirement that agencies must meet before exempting material
from disclosure. See FOIA Improvement Act of 2016, Pub. L. No. 114–185, 130 Stat. 538 (2016). Under the amended
law, an agency “shall withhold information” under the FOIA “only if the agency reasonably foresees that disclosure would
harm an interest protected by an exemption” or “disclosure is prohibited by law.” 5 U.S.C. § 552(a)(8)(A)(i). This new
“foreseeable harm” requirement does not apply to Sierra Club's FOIA request because the amendment only applies to
a “request for records ... made after the date of enactment,” which was June 30, 2016. Pub. L. No. 114–185, § 6, 130
Stat. 538, 545.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

18

Sierra Club, Inc. v. United States Fish and Wildlife Service, 925 F.3d 1000 (2019)
19 Cal. Daily Op. Serv. 4905, 2019 Daily Journal D.A.R. 4636

8

9

10
11
1

19a

In Cooling Water Intake Structure Coal. v. EPA, 898 F.3d 173 (2d Cir. 2018), amended, 905 F.3d 49 (2d. Cir. 2018),
the plaintiffs asked to supplement the certified record with what appear to be the same documents at issue in this case.
905 F.3d at 65 n.9. Finding “nothing in the privilege log that would disturb the ‘presumption of regularity’ afforded to the
agencies' certified record,” id. (citing Citizens to Pres. Overton Park, Inc. v. Volpe, 401 U.S. 402, 415, 91 S.Ct. 814, 28
L.Ed.2d 136 (1971)), the Second Circuit denied this motion in a footnote, noting that the EPA had “produced a privilege log
that adequately describes the nature of [the requested documents] and their rationale for classifying [them] as deliberative
and therefore privileged,” and thus the Agency had satisfied their obligation under Fed. R. Civ. P. 26(b)(5)(A)(ii) (requiring
that a party claiming privilege describe the privileged documents in a manner that allowed other parties to assess the
claim). Cooling Water Intake Structure Coal., 905 F.3d at 65 n.9. Cooling Water Intake did not, however, analyze whether
the reasons given in the privilege log for the claims of privilege were justified. Instead, the Second Circuit applied a
“presumption of regularity” regarding the administrative record, not applicable here. It did not address whether the EPA
had carried a burden of showing that the documents at issue were both deliberative and predecisional, as we must do to
determine whether they should be disclosed under FOIA, Carter, 307 F.3d at 1089. Given the different burdens, we do
not believe that the footnote in that decision suggests a different result than the one we reach.
We recognize the difference between the NMFS April 2014 “jeopardy opinion” and the NMFS and FWS joint May 2014
“no-jeopardy” opinion, both of which address the March 2014 proposed EPA rule. The cover letter transmitting the final
“no jeopardy” opinion of May 19, 2014 explains that its opinion is based in part on “the Services' interpretations of that
rule as agreed upon by EPA on April 8, 2014.” These interpretations—obviously considered of key importance to the
Services—were agreed to by EPA during the same time frame that NMFS was preparing its earlier jeopardy opinion,
which it ultimately decided not to send. Beyond this, we do not know why NMFS decided to join the final “no jeopardy”
opinion after its staff earlier proposed reaching the opposite conclusion. But “back-and-forth” debate is precisely the type
of deliberative process that Exemption 5 protects.
The NMFS December 2013 jeopardy opinion (NMFS 44516.1) does contain two insertions that could possibly be editorial
notes not intended to be included in the final report. For that reason, we instruct the district court to redact these lines
from that report.
As discussed earlier, the NMFS did prepare a jeopardy opinion concerning the March 2014 rule, which was pre-decisional
as to the final no jeopardy joint opinion on that rule.
The Second Circuit recently sustained the Services' assertion of the deliberative process privilege over the critical
documents at issue in this case: the three draft biological opinions and the three draft RPAs. Cooling Water Intake
Structure Coal. v. EPA, 905 F.3d 49, 65 n.9 (2d Cir. 2018). The court held that the Services' privilege log “adequately
describes the nature of the ... requested documents and their rationale for classifying those documents as deliberative
and therefore privileged.” Id. While we do not have the privilege log's descriptions of the documents, the Second Circuit
described them as “draft documents produced by the Services during consultation with the EPA.” Id. These key facts—
that the documents were subject to change and that they reflect a joint deliberative process—are the basis for my dissent.

End of Document

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

19

